  September 11, 2002




Information
Technology

The Defense Advanced Research
Projects Agency’s Transition of
Advanced Information Technology
Programs
(D-2002-146)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Information and Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.sod.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at (703)
  604-8937 (DSN) 664-8937) or fax (703) 604-8932 or visit the Inspector General,
  DoD, home page at www.dodig.osd.mil.

  Suggestions for Audits

  To suggest ideas for or to request audits, contact the Audit Followup and Technical
  Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704
  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

ACTD                 Advanced Concept Technology Demonstration
ATD                  Advanced Technology Demonstration
DARPA                Defense Advanced Research Projects Agency
IT                   Information Technology
S&T                  Science and Technology
         Office of the Inspector General of the Department of Defense
Report No. D-2002-146                                           September 11, 2002
  (Project No. D2001AB-0141)

      The Defense Advanced Research Projects Agency’s Transition
            of Advanced Information Technology Programs

                               Executive Summary

Who Should Read This Report and Why? The DoD acquisition community and
military and commercial program managers who develop and transition information
technology should read this report on how the Defense Advanced Research Projects
Agency has transitioned information technology programs.

Background. Congress and DoD officials have voiced concern that technology has not
quickly transitioned to the warfighter. The Defense Advanced Research Projects
Agency’s mission is to develop imaginative, innovative, and often high-risk research
ideas offering a significant technological impact on DoD and commercial systems. The
primary role of the Defense Advanced Research Projects Agency is to act as the technical
change leader for the DoD and its mission is to promote revolutionary technical
innovations to support our national security.

Results. The Defense Advanced Research Projects Agency has transitioned advanced
information technology programs to the military and civilian communities. A review of
17 information technology programs funded at a total of $280 million from FYs 1999
through 2001 showed that all or parts of 13 programs funded at a total of $240 million
over the same period were transitioned to military and commercial users, two programs
were still ongoing, and two programs were terminated. Transition of programs that
advanced warfighting capabilities occurred because the program managers were
effectively planning, managing, and coordinating with potential users.
Table of Contents
Executive Summary                                                             i

Introduction
     Background                                                              1
     Objectives

Finding
     Transition of Defense Advanced Research Projects Agency’s Information
          Technology Programs                                                2


Appendixes
     A. Audit Process                                                        6
          Scope                                                              6
          Methodology
          Management Control Program Review
          Summary of Prior Coverage                                           7
     B. Summary of Information Technology Programs Reviewed                   8
     C. Report Distribution                                                  11



Management Comments
     Defense Advanced Research Projects Agency                               13
Background
    DoD Acquisition Policy. DoD Directive 5000.1, “The Defense Acquisition
    System,” (Incorporating Change 1, January 4, 2001) October 23, 2000, states that
    science and technology (S&T) projects shall address user needs. Programs will
    be broad based, spanning all DoD S&T, to anticipate future needs and those
    technologies not being pursued by civil or commercial communities. The S&T
    projects will preserve long-range research and should enable rapid transition from
    the S&T base to useful military products. Specific S&T products must focus on
    increasing the effectiveness of a capability, decreasing costs, increasing
    operational life, and improving the capabilities of systems through planned
    upgrades.

    Science and Technology Guidance. An affordability task force chartered by the
    Director for Defense Research and Engineering issued a handbook in October
    1999, and the Deputy Under Secretary of Defense (Science and Technology)
    issued a guide in April 2001 to the Military Departments and Defense agencies
    concerning practices that they believed, if instituted, would assist in transitioning
    technology. In addition, in response to congressional concerns that the DoD had
    not been successful in transitioning technology, the Under Secretary of Defense
    for Acquisition, Technology, and Logistics issued a report to Congress identifying
    why technology was not transitioning.

            Report of the Under Secretary of Defense for Acquisition,
    Technology, and Logistics to Congress. In June 2001, the Under Secretary of
    Defense for Acquisition, Technology, and Logistics provided a report on
    technology transitions to the congressional Defense committees from the Defense
    Advanced Research Projects Agency (DARPA). The report provided Congress
    with the results of a review of the transition of research to the acquisition program
    managers and, ultimately, to the warfighter. The report cited the need for
    collaboration among three diverse groups, the S&T researcher, the acquisition
    program manager, and the military user, as a key reason for difficult technology
    transition. Effective transition requires the groups to work together as a team,
    which is frequently a difficult issue. In addition, for a technology transition to be
    successful, the acquisition program manager’s prime contractor must be
    supportive of the technology insertion, and the technology must demonstrate a
    greater return than the existing capability.


Objectives
    Our objective was to determine whether DARPA transitioned its information
    technology advanced technology programs into military applications. See
    Appendix A for a discussion of the audit scope and methodology and the review
    of the management control program.




                                          1
           Transition of Defense Advanced Research
           Projects Agency’s Information
           Technology Programs
           The DARPA has transitioned advanced information technology (IT)
           programs to military and commercial users. Our review of 17 IT
           programs showed that all or parts of 13 programs that received funds
           totaling $240 million from FYs 1999 through 2001were transitioned to
           military and commercial users, two programs were still ongoing, and two
           programs were terminated. The 17 programs received $280 million in
           total funding over the same period. Those transitions occurred because
           the DARPA program managers had effectively managed the IT programs
           with the goal of transitioning all or parts of the program to military and
           civilian users. As a result of DARPA IT transitions, the military and
           civilian communities are able to improve and advance the warfighter’s
           capabilities.

Information Technology Program Process
    DARPA Program Process. The primary mission of DARPA is to act as the
    technical change leader for the DoD and to promote revolutionary technical
    innovations to support national security. DARPA focuses on high-risk research
    and complements, but is not a substitute for, the Services’ science and technology
    and acquisition organizations. Unlike the Services, DARPA does not manage
    formal acquisition programs. The DARPA Director rarely approves funding for
    applications or extensions of existing technology.

    A program starts as an idea or concept generated by a DARPA program manager
    that is briefed to the Director of DARPA who decides whether the program
    warrants funding. DARPA management evaluates program goals, objectives,
    structure, and content and then determines whether a program’s concept
    represents a revolutionary or evolutionary change. Once the decision is made to
    fund the program, the program manager then funds personnel to develop the
    technology and perform the work. Those personnel are called principal
    investigators. Other personnel called agents complete the necessary paperwork
    associated with any government contracts, funding documents, and reports.

     Program Manager Responsibilities. Program managers are responsible for all
    acquisition planning and program oversight, including budgeting, staffing, and
    directing the day-to-day management of the program to achieve the goals of the
    IT program. Some of the questions that the DARPA management continually
    asks the program managers during formal and informal briefings are:
         • What are you trying to accomplish?
         • If successful, what difference will it make to national security?
         • What are the mid-term tests, final exams, and what will be the DARPA
            “exit strategy”?


                                        2
Program Transitions
    The audit examined 17 IT programs that received $280 million for research,
    development, test, and evaluation from FY 1999 through FY 2001. The
    17 programs that we reviewed used advanced technology development funding
    that was categorized as 6.3 funding. Thirteen of the IT programs were
    transitioned to a new military user, an ongoing program, and the commercial
    sector. Nine of the 13 programs were transitioned to various military commands
    for immediate use and for use in ongoing military projects. For example, the
    technology from the Control of Agent Based Systems program was transitioned to
    the Air Mobility Command. The technology involved software agents that were
    able to detect complex events across several Air Mobility Command data sources
    and systems. The benefits gained by the Air Mobility Command from using the
    transitioned technology included the decrease in manual searches for data,
    operational alerts to personnel, and improved reaction times for key events and
    decisions. Also, as discussed in the example below, technology went to both the
    military and commercial sectors. The Organically Assured and Survivable
    Information Systems program was to provide defense mechanisms against
    adversaries to allow operation of mission-critical functions in the face of cyber
    attacks against information systems. This capability was transitioned to a
    commercial company and the Air Force Research Laboratory. Two programs are
    still ongoing and are expected to transition in FY 2003 according to the program
    managers. Two programs were terminated because of funding cuts; however,
    parts of one terminated program were put into another ongoing program. The
    following table depicts the programs that transitioned and their transition dates.
    (See Appendix B for a complete list of the IT programs and their status.)

                                Program Transitions
                           Program                               Fiscal Years
     1. Synthetic Theater of War ACTD                                2000
     2. Battlefield Awareness and Data Dissemination             1999 – 2000
     3. Joint Force Air Component Commander                          2002
     4. Command Post of The Future                                   2002
     5. Active Templates                                         2002 – 2003
     6. Advanced Simulation Technology Thrust                        1999
     7. Information Assurance Integrated Testbed                     2001
     8. Joint Task Force ATD                                         1999
     9. Control of Agent Based Systems                               2001
     10. Advanced Networking Technology                              1999
     11. Broadband IT                                                1999
     12. Genoa                                                       2000
     13. Organically Assured and Survivable IT                   2002 – 2003



                                        3
Effective Management of Information Technology Transition
    The primary mission of DARPA requires it to focus its investments on
    revolutionary breakthroughs, rather than on short-term technology
    demonstrations. The technology process hinges on either reducing the risk of
    new technology so that it becomes more useful for the customer than an existing
    capability, or providing a leap-ahead capability that is worth the necessary
    investment. Technology transition is difficult because it requires the
    collaboration of three diverse groups of individuals: researchers, acquisition
    program managers, and military users. There must be a partnership between
    researchers, acquisition program managers, and military users to provide timely
    information on the development and implementation of the new technology.
    There is no single pathway or technology transition process appropriate for all
    technologies. The figure below depicts the DARPA transition process as
    described by the DARPA Comtroller.




                                 Idea/Concept


                                                         DARPA Director
                                  Military
       Transition/            Program Manager/
       Spin-off               Commercial Users
                                                             Funded
                                   DARPA
                                   Program
        Termination
                                   Manager



                     Agents                 Principal Investigators



    DARPA Transition Process




                                        4
    As stated in the DARPA report provided to Congress by the Under Secretary of
    Defense for Acquisition, Technology, and Logistics in June 2001, DARPA uses a
    broad range of transition strategies to match the array of technologies that it
    promotes. As an entrepreneurial technical organization, DARPA operates outside
    the requirements and acquisition system, but constantly seeks opportunities to
    give new capabilities back to the Services and other Defense agencies. DARPA,
    in its report, notes three techniques that it believes are the basis for success in
    implementing its technology transition process.


    Building on What Works. DARPA believes that continuous communication
    among researchers, acquisition program managers, and military users is an
    effective way to improve the transition of technology. DARPA and a Service
    frequently team to commit funding to develop a technology for the Service.
    DARPA is working with the Army, Navy, and Air Force to develop various
    programs. For example, DARPA joined with the Navy and Air Force to develop
    an Unmanned Combat Air Vehicle.

    Improving Understanding. DARPA examines its transition process and
    evaluates how its technologies have transitioned in the recent past. The goal is to
    improve its ability to transition through a lessons-learned approach on transition
    strategies that have worked best for technologies under varying circumstances.

    Strengthening and Adding Strategies. DARPA is improving its strategic
    approach and developing new approaches to use DoD initiatives for improving
    technology transition to the warfighter. DARPA also plans to build a closer
    working relationship with the Navy’s newly installed Chief Technology Officer.

Conclusion
    The DARPA is successfully pursuing new information technology programs and,
    when it is feasible, the technology derived is being transitioned to military and
    commercial users. In addition, to further improve technology transition, future
    S&T program planning at DARPA and the Services must continue to focus on the
    needs of the warfighter.

Management Comments
    The Director attributed DARPA’s transition success to emphasis on planning for
    transition in all program phases starting with its initial presentation of a program
    for approval. The DARPA approach resulted in a very respectable rate of
    transition success, given the high-risk nature of the programs.




                                          5
Appendix A. Scope and Methodology
    We examined DARPA Information Systems ATD programs funded with 6.3
    Research and Development appropriations. DARPA headquarters listed 18
    Information Systems programs that were categorized as 6.3 advanced
    technology programs. However, one of the programs was classified so we
    excluded that program from our review and reviewed the remaining 17 IT
    programs. Those programs received $280 million from FY 1999 through FY
    2001. We met with each DARPA Program Manager to obtain information on the
    IT program. We also interviewed many program investigators and agents to
    obtain additional documentation. Finally, we went to at least one end-user for
    each of the seven transitioned programs to verify that they were using the
    technology that DARPA stated had transitioned.

    We performed this audit from July 2001 through May 2002 in accordance with
    generally accepted government auditing standards. We did not review one
    classified IT program. We did not evaluate the merits of the IT programs or the
    funding levels provided to us by DARPA. In addition, we limited our review to
    determining that the IT program was transitioned to an end user. Also, we did not
    review the management control program for DARPA. We limited our review of
    controls to the reliability of the FY 2001 DoD Annual Statements of Assurance.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. We did not rely on technical assistance to perform
    this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Weapon System Acquisition high-risk area.



Management Control Program Review
    We did not review the management control program for DARPA. We limited our
    review of controls to the reliability of the FY 2001 DoD Annual Statements of
    Assurance. The Statement of Assurance provides that DARPA has reasonable
    assurance that management controls are in place and operating effectively. Based
    on our review of the 17 DARPA programs, we found reasonable assurance that
    management controls were in place for transitioning the IT programs.

Prior Coverage
    During the last 5 years, the General Accounting Office has issued two audits
    discussing technology transitioning to the warfighters.

                                        6
GAO
      Report No. GAO-1-311, Defense Acquisition: Army Transformation Faces
      Weapon Systems Challenges, May 21, 2001

      Report No. NSIAD-99-162, Best Practices: Better Management of Technology
      Development Can Improve System Outcomes, July 30, 1999




                                       7
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Acquisition Reform)
  Director, Defense Research and Engineering
  Deputy Under Secretary of Defense for Science and Technology
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Defense Agency
Director, Defense Advanced Research Projects Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations

                                          11
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          12
Defense Advanced Research Project Agency
Comments




                     13
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing of the Department of Defense prepared this report.
   Personnel in the Office of the Inspector General of the Department of Defense
   who contributed to the report are listed below.

   Mary L. Ugone
   Bruce A. Burton
   Michael E Simpson
   George A. Leighton
   Ronald L. Nickens
   Paul R. Glenn
   Timothy J. Miller
   Trisha L. Staley
   Jacqueline N. Pugh
